Nos. 19-422 & 19-563
IN THE

uprente Truth of fife nitib► ftttes
PATRICK J. COLLINS, et al.,
Petitioners,
v.
STEVEN T. MNUCHIN, SECRETARY
OF THE TREASURY, et al.,
Respondents.
STEVEN T. MNUCHIN, SECRETARY
OF THE TREASURY, et al.,
Petitioners,
v.
PATRICK J. COLLINS, et al.,
Respondents.
ON WRITS OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

BRIEF OF AMICUS CURIAE JED H.
SHUGERMAN IN SUPPORT OF THE
COURT-APPOINTED AMICUS CURIAE
RACHEL HOMER
JUSTIN FLORENCE
PROTECT DEMOCRACY PROJECT
Counsel of Record
ANNE
TINDALL
15 Main Street, Suite 312
JUSTIN VAIL
Watertown, MA 02472
PROTECT DEMOCRACY PROJECT
2020 Pennsylvania Avenue NW,
Suite 163
Washington, DC 20006
(202) 997-2166
rachel.homer@protectdemocracy.org
Counsel for Amicus Curiae
298614

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF CITED AUTHORITIES

iii

INTERESTS OF AMICUS CURIAE

1

SUMMARY OF ARGUMENT

2

ARGUMENT

4

I. An Overlooked Senate Diary and the
House Debates Show a Broad Majority
of the First Congress Rejected Exclusive
Presidential Removal

4

The Foreign Affairs Bill and the
Four Camps

5

Maclay's Diary Indicates Senate
Opposition and House Retreat

9

A Head Count of the House Shows
a Wide Majority Rejected Exclusive
Presidential Removal

14

Maclay's Diary Records Strategic
Ambiguity, Confusion, and Retreat
by the Presidentialists

16

Table of Contents
Page
II. The First Congress's Other Debates and
Statutes Demonstrate the Rejection of
Exclusive Presidential Removal

18

The First Congress Voted Against
"At Pleasure" Removal

19

Madison Proposed a Comptroller
Who Would Serve "During Good
Behaviour," and the First Congress
Understood That a Term of Years
Limited Presidential Removal

19

The First Congress Enacted Removal
by the Judiciary

21

III. What this New1789 Evidence Tells Us About
the Constitution's Text, the Convention,
and Ratification

24

Madison, Hamilton, and the
Convention

25

The Executive Vesting Clause
Did Not Mean "Indefeasible" or
Exclusive Removal

27

CONCLUSION

29

APPENDIX — TABLE: POSITIONS ON
REMOVAL POWER

la

'in

TABLE OF CITED AUTHORITIES
Page
CASES
Clinton v. Jones,
520 U.S. 681 (1998)
Free Enter. Fund v.
Pub. Co. Acct. Oversight Bd.,
561 U.S. 477 (2010)

10

4, 20

Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803)

20

Morrison v. Olson,
487 U.S. 654 (1988)

27

Myers v. United States,
272 U.S. 52 (1926)
Seila Law LLC v. Consumer Fin. Prot. Bureau,
140 S. Ct. 2183 (2020)
Trump v. Vance,
140 S. Ct. 2412 (2020)

passim
2, 4
10

CONSTITUTIONAL PROVISIONS
U.S. Const. art. II
U.S. Const. art. III

passim
27

iv
Cited Authorities
Page
STATUTES
1 Stat. 613 (1799)

23

Act of April 18, 1796, ch. 13, § 3, 1 Stat. 452,

24

Act of April 20, 1818, § 4, 3 Stat. 447

24

Act of April 21, 1806, ch. 48, § 6, 2 Stat. 402

24

Act of April 21, 1806, ch. 49, § 3, 2 Stat. 404

24

Act of April 30, 1790, § 21, 1 Stat. 112

23

Act of Feb. 12, 1873, ch. 131, § 1, 17 Stat. 424

24

Act of Feb. 23, 1795, ch. 27, § 2, 1 Stat. 419

23, 24

Act of July 17, 1854, ch. 84, § 6, 10 Stat. 306

24

Act of July 31, 1789, 1 Stat. 29

23

Act of July 4, 1836, ch. 352, § 14, 5 Stat. 112

24

Act of June 11, 1864, ch. 119, 13 Stat. 123

24

Act of June 20, 1864, ch. 136, § 2, 13 Stat. 137

24

Act of June 5, 1794, ch. 49, § 14, 1 Stat. 378

23

Cited Authorities
Act of March 3, 1869, ch. 125, § 3, 15 Stat. 321

Page
24

Act of March 3, 1791, § 1, 1 Stat. 215

23

Act of March 3, 1791, § 49, 1 Stat. 199

23

Act of May 7, 1822, ch. 107, § 17, 3 Stat. 693

24

Act of May 8, 1794, ch. 23, § 11, 1 Stat. 354

23

Act of Sept. 2, 1789, ch. 12, § 8, 1 Stat. 65

22

An Act concerning the District and Territorial
Judges of the United States, 2 Stat. 788
(Dec. 18, 1812)

24

An Act for the Establishment of a General
Land Office, § 10, 2 Stat. 716 (Apr. 25, 1812)

24

An Act to Prohibit the Importation of Slaves,
ch. 22, §§ 5, 7, 2 Stat. 426 (1807)

24

Coasting Act, § 37, 1 Stat. 55 (Sept. 1, 1789)

12

Embargo Act of Jan. 9, 1809, § 1, 2 Stat. 506 . . . . 23, 24
Embargo Act of Dec. 17, 1813, 3 Stat. 88
Foreign Affairs Act, ch. 4, § 2, 1 Stat. 28 (1789)

24
6

vi
Cited Authorities
Neutrality Act, 1 Stat. 381 (1794)
Northwest Territory Act of 1789,
1 Stat. 50 (Aug. 7, 1789)

Page
23
12

Sinking Fund Act of 1790, 1 Stat. 186
(Aug. 12, 1790)
12, 25
The Duty Act, 1 Stat. 24 (Jul. 4, 1789)

12

The Sedition Act of 1798 § 1, 1 Stat. 596 (1798)

23

OTHER AUTHORITIES
1 Annals of Cong. (1789)
1 Max Farrand, Records of the Federal
Convention 70 (Jun. 1, 1787) (1911)

6, 12
26

9 Documentary History of the First Federal
Congress, 1789-1791 (Charlene Bangs Bickford
et al. eds., 2004)
passim
9 The Diary of William Maclay and Other
Notes on Senate Debates (Kenneth R.
Bowling & Helen E. Veit, 1988)

3

Akhil Reed Amar & Neal Kumar Katyal, Executive
Privileges and Immunities: The Nixon and
Clinton Cases, 108 Harv. L. Rev. 701 (1995)

10

vii
Cited Authorities
Page
Andrew Kent, Ethan J. Leib, & Jed Shugerman,
Faithful Execution and Article II,
132 Harv. L. Rev. 2111 (2019)

29

Articles of Confederation, Art. IX

28

Articles of Confederation, Art. X

28

Charles Thach, Jr., The Creation of the Presidency,
9, 26
1775-1789 (1923)
Charles Warren, New Light on the History
of the Federal Judiciary Act of 1789,
37 Harv. L. Rev. 49 (1923)

10

Christine Kexel Chabot, Is the Federal
Reserve Constitutional? An Originalist
Argument for Independent Agencies,
Notre Dame L. Rev. (forthcoming)

25

Curtis A. Bradley & Martin S. Flaherty, Executive
Power Essentialism and Foreign Affairs,
102 Mich. L. Rev. 545 (2004)

5

Daniel J. Meltzer, The History and Structure of
Article III, 138 U. Pa. L. Rev. 1569 (1990)

10

David P. Currie, The Constitution in Congress: The
Federalist Period, 1789-1801, 37-42 (1997)

5

viii
Cited Authorities
Page
Edward S. Corwin, Tenure of Office and the
Removal Power Under the Constitution, 27
Colum. L. Rev. 353 (1927)

5, 7

Gerhard Casper, An Essay in Separation of
Powers: Some Early Versions and Practices,
30 Wm. & Mary L. Rev. 211 (1989)

5

J. David Alvis et al., The Contested
Removal Power (2013)

14

Jane Manners & Lev Menand, Removal
Permissions and the Forgotten Tenure of a
Term of Years, Colum. L. Rev

20

Jed Shugerman & Ethan J. Leib, Will The Supreme
Court Hand Trump Even More Power?,
N.Y. Times (Oct. 8, 2019)

29

Jed Shugerman, The Decisions of 1789 Were
Non-Unitary: Removal by Judiciary and
the Imaginary Unitary Executive (Part
II), Fordham Law Legal Studies Research
passim
Paper No. 3597496 (May 10, 2020)
Jed Shugerman, The Executive Vesting
Clause Did Not Imply Exclusive Removal
(unpublished manuscript)

1

ix
Cited Authorities
Page
Jed Shugerman, The Indecisions of 1789: Strategic
Ambiguity and the Imaginary Unitary Executive
(Part I), Fordham Law Legal Studies Research
Paper No. 3596566 (May 8, 2020)
passim
Jerry Mashaw, Creating the Administrative
Constitution (2012)

5

John Manning, Separation of Powers as Ordinary
Interpretation, 124 Harv. L. Rev. 1939 (2011)

5

Jonathan Gienapp, The Second Creation:
Fixing the American Constitution at
the Founding (2018)

5

Julian Davis Mortenson, Article II Vests the
Executive Power, not the Royal Prerogative,
119 Colum. L. Rev. 1169 (2019)

28

Julian DavisMortenson, The Executive PowerClause,
167 U. Penn. L. Rev. (forthcoming Fall 2020)

28

Lawrence Lessig & Cass Sunstein, The
President and the Administration,
94 Colum. L. Rev. 1 (1994)

5

Peter M. Shane, The Originalist Myth of the Unitary
Executive, 19 U. Penn. J. Con. L. 324 (2016)

27

x
Cited Authorities
Page
Peter Strauss, Overseer, or "The Decider"?
The President in Administrative Law,
75 Geo. Wash. L. Rev. 696 (2007)

5

Robert G. Natelson, The Original Meaning of
the Constitution's Executive Vesting Clause,
31 Whittier L. Rev. 1 (2009)

27

Saikrishna Prakash, New Light on the Decision of
8, 19
1789, 91 Cornell L. Rev. 1021 (2006)
Steven G. Calabresi & Christopher S. Yoo, The
Unitary Executive During the First HalfCentury, 47 Case W. Res. L. Rev. 1451 (1997)

10

Thomas H. Lee, The Safe-Conduct Theory
of the Alien Tort Statute, 106 Colum. L.
Rev. 830 (2006)

10

Victoria Nourse, Reclaiming the Constitutional Text
from Originalism, 106 Cal. L. Rev. 1 (2018)

27

William Baude, Constitutional Liquidation,
71 Stan. L. Rev. 1 (2019)

5

1
INTERESTS OF AMICUS CURIAE'
Amicus Curiae Jed Shugerman is a Professor of Law
at Fordham University. He is an expert in American legal
history. He recently conducted extensive research on the
historical records of the first Congress, focusing on the
"Decision of 1789." This brief offers new evidence about
the original public meaning of Article II and shows that,
in fact, the first Congress rejected the unitary executive
theory both in debate and in statute. His findings and
analysis are contained in recent academic papers,2 and
are part of a forthcoming book on Article II. They are
presented to the Court in support of the Court-appointed
Amicus Curiae, Professor Aaron Nielson, Esquire.

The parties have consented to the filing of amicus briefs
in this case. No counsel for a party authored this brief in whole
or in part, and no party or counsel for a party made a monetary
contribution intended to fund the preparation or submission of this
brief. No such monetary contributions were made by anyone other
than amicus and their counsel.
Jed Shugerman, The Indecisions of 1789: Strategic
Ambiguity and the Imaginary Unitary Executive (Part I), Fordham
Law Legal Studies Research Paper No. 3596566 (May 8, 2020),
available at https://papers.ssrn.com/so13/papers.cfm?abstract_
id=3596566; Jed Shugerman, The Decisions of 1789 Were NonUnitary: Removal by Judiciary and the Imaginary Unitary
Executive (Part II), Fordham Law Legal Studies Research Paper
No. 3597496 (May 10, 2020), available at https://papers.ssrn.com/so13/
papers.cfm?abstract_id=3597496; Jed Shugerman, The Executive
Vesting Clause Did Not Imply Exclusive Removal (unpublished
manuscript) (on file with author).

2
SUMMARY OF ARGUMENT
Petitioners and the en bane Court of Appeals below
have rested their contention that the Constitution
grants the President at-will removal authority over
the head of the Federal Housing Finance Agency
(FHFA) on historical claims about the first Congress's
ostensible "Decision of 1789." In so doing, Petitioners
are following Chief Justice Taft's account in
Myers v. United States, upon which this Court relied on in
2010 and again last term for an originalist interpretation of
Article II. New historical research shows that Myers was
incorrect. The "Decision of 1789" actually supports, rather
than undermines, Congress's power to limit presidential
removal.
Myers asserted that the first Congress's "Decision
of 1789" declared that the Constitution assigned removal
power to the President alone: "[T]here is not the slightest
doubt, after an examination of the record, that the
[Foreign Affairs] vote was, and was intended to be, a
legislative declaration that the power to remove officers
appointed by the President and the Senate vested in the
President alone." 272 U.S. 52, 117 (1926). New evidence
calls for a re-examination of this record, raising more
than just a doubt.
Originalism depends upon clear historical evidence of
public meaning. Seila Law LLC v. Consumer Financial
Protection Bureau noted that the first Congress's
view "provides contemporaneous and weighty evidence
of the Constitution's meaning.'" 140 S. Ct. 2183, 2197
(2020) (internal quotation omitted). Overlooked Senate
records show no consensus in the first Congress to

3
support Myers's interpretation. To the contrary, this
new evidence suggests a very different decision in 1789.
The first Congress rejected "presidentialism," the more
general constitutional claim that the President alone can
remove principal officers confirmed by the Senate, even
the heads of the Departments of Foreign Affairs, War,
and especially Treasury; and it rejected the more specific
claim of exclusive or "indefeasible" presidential removal
under Article II (a claim by the Petitioners here), that
presidential removal is "at pleasure" or "at will."
The most significant new evidence:
Senator William Maclay's diary' reveals initial
opposition to presidential removal (of any source) in
the Senate, which is the most plausible explanation for
Madison's sudden retreat from a clear removal clause
to an ambiguous one. Madison's opponents and allies
identified this shift as evasion or reconciliation with
the Senate.
The first head-count of the House by constitutional
categorization demonstrates that only about one
third of the House supported the "presidential"
interpretation, and a wide majority rejected it.
New evidence from the Treasury debate and from a
series of statutes reveal further rejection of exclusive
3. See 9 the Diary of William Maclay and Other Notes on
Senate Debates (Volume 9) (Kenneth R. Bowling & Helen E. Veit,
1988). Also available as 9 Documentary History of the First Federal
Congress, 1789-1791 (Charlene Bangs Bickford et al. eds, 2004)
[hereinafter DHFFC]; and at the University of Virginia's Rotunda
digital edition (containing all of these DHFFC records) at https://
rotunda.upress.virginia.edu/founders/FFCP.

4
presidential removal, especially in the domain of
finance. Congress delegated removal power, even of
the Secretary of Treasury, to the judiciary.
4) This widespread opposition to presidentialism in
1789 prompts a re-reading of the Constitution's text,
the Convention, and the Ratification debates. New
research on "vesting" shows that this text likely
did not have a public meaning of "exclusive" or
"indefeasible."
Myers was mistaken. The first Congress opposed this
interpretation of Article II, forced the deletion of the clear
removal language in the Foreign Affairs bill, and then
enacted six anti-presidentialist removal clauses. It would
be an error in terms of originalism to rely on the first
Congress or the Executive Vesting Clause to invalidate
the FHFA structure.
ARGUMENT
I. An Overlooked Senate Diary and the House Debates
Show a Broad Majority of the First Congress
Rejected Exclusive Presidential Removal
The Supreme Court recently stated, "Since 1789,
the Constitution has been understood to empower the
President to keep these officers accountable—by removing
them from office, if necessary." Free Enter. Fund v.
Pub. Co. Acct. Oversight Bd., 561 U.S. 477, 483 (2010)
; Seila Law LLC v. Consumer Fin. Prot. Bureau, 140
S. Ct. 2183, 2198 (2020). New evidence from the first
Congress suggests no such understanding, and likely a
contrary original public meaning.

5
Legal scholars from across the spectrum have
questioned Myers's interpretation of the first Congress.4
One nagging problem for an originalist argument for
presidentialism has been that the Senate, which tied 1010 on the bill, had no official records of debate. However,
scholars on both sides of the debate overlooked a senator's
detailed diary and other senators' notes. The new evidence
reveals initial Senate opposition, explaining why Madison
retreated to ambiguity in order to pass the Foreign
Affairs bill.
A. The Foreign Affairs Bill and the Four Camps
The "Decision of 1789" was shorthand, apparently
first used in the 1830s, for a series of debates and votes on
establishing the first three executive branch departments,
with secretaries whom the president could remove. Vice
President John Adams, then-Representative James
Madison, and a handful of senators were eager to claim a
constitutional consensus from these votes, and over time,
4. Edward S. Corwin, Tenure of Office and the Removal Power
Under the Constitution, 27 Colum. L. Rev. 353, 368-69 (1927);
David P. Currie, The Constitution in Congress: The Federalist
Period, 1789-1801, 37-42 (1997); Lawrence Lessig & Cass Sunstein,
The President and the Administration, 94 Colum. L. Rev. 1
(1994); Gerhard Casper, An Essay in Separation of Powers: Some
Early Versions and Practices, 30 Wm. & Mary L. Rev. 211 (1989);
Peter Strauss, Overseer, or "The Decider"? The President in
Administrative Law, 75 Geo. Wash. L. Rev. 696, 717 (2007); Curtis
A. Bradley & Martin S. Flaherty, Executive Power Essentialism
and Foreign Affairs, 102 Mich. L. Rev. 545, 662-63 (2004); John
Manning, Separation of Powers as Ordinary Interpretation, 124
Harv. L. Rev. 1939, 2030-31 (2011); Jerry Mashaw, Creating the
Administrative Constitution (2012); Jonathan Gienapp, The Second
Creation: Fixing the Constitution 139, 160-62 (2018); cf. William
Baude, Constitutional Liquidation, 71 Stan L. Rev. 1, 53-55 (2019).

6
they shaped perceptions. New evidence shows that they
were engaging in spin, to portray retreat as victory. This
is a story of Madison's cunning parliamentary skill, of
strategic ambiguity, and of a deliberately messy legislative
history—fraught with the problem of finding one's friends
in the party, to paraphrase Justice Scalia.
In May 1789, Madison proposed the Foreign Affairs
bill, with language that provided that the Secretary would
be removed by the President.' A committee recommended
language in June 1789, reflecting Madison's proposal:
[T]here shall be established ... the Department
of Foreign Affairs, at the head of which there
shall be an officer . . . to be removable by the
President.6
After four full days of debate, the House adopted this
language on Friday, June 19. Then, on Monday, June
22, Madison suddenly reversed course, and proposed
replacing the existing language—which clearly gave the
President the removal power—with unclear language:
[T]here shall be an inferior officer . . . who,
whenever the said principal officer shall be
removed from office by the President of the
United States, or in any other case of vacancy,
shall during such vacancy have the charge
and custody of all records, books and papers
appertaining to the said department.'
1 Annals of Cong. 370 (1789).
Id. at 370-71 (emphasis added).
Foreign Affairs Act, ch. 4, § 2, 1 Stat. 28, 29 (1789) (emphasis
added).

7
As a textualist matter, this clause could be read as
assuming a pre-existing removal power, or alternatively,
foreseeing that a future Congress or President might
assert a removal power against a department head, in
which case, a contingency plan with a back-up officer
already would be in place.
Then Madison and his allies pushed for three key
votes that ostensibly concluded the "Decision of 1789":
first, to add this ambiguous language; second to remove
the explicit "removable" clause (both on Monday, June 22);
and third (on June 24), to pass the bill.
The unitary executive theory claims that a majority
of Congress intended it to signal that Article II had
established presidential removal. Among the senators
and representatives at the time, there were four views
of how the removal power should be distributed.8 The
first group, a small number of representatives, believed
that the Constitution recognized impeachment and only
impeachment. The second group, a substantial number of
representatives, argued that the traditional rule was that
the removal power mirrored the appointment power—so
if the Senate confirms appointments, the Senate must also
share a power to confirm firings (the "senatorialists").
The majority, meanwhile, thought that the president
alone should be able to remove, but this bloc was divided
into two groups: A third group (the "congressionalists")
that believed Article II did not establish removal, but
Congress could and should enact presidential power; and
the fourth and final group ("presidentialists") who thought
the Constitution itself established this power, and thus the
Senate could not prevent presidential removal.
8. See Corwin, supra note 4. for these labels.

8
The "Decision of 1789" supposes that a House
majority, in order to imply preexisting presidentialism
and not a congressional delegation, replaced the explicit
"removable by the President" clause with the ambiguous
contingency-plan clause. Critics have pointed out
that Madison's proposal divided and conquered: The
congressionalists voted with Madison's presidentialists to
add the contingency plan, but the presidentialists relied on
the anti-presidential senatorial bloc to remove the explicit
removal clause (as strange bedfellows with polar opposite
views). A recent attempt to revive the unitary executive
theory (an expansive version of presidentialism) suggested
that the presidentialists and congressionalists overlapped,
and that many of the members voted "no" on deleting the
explicit clause because they wanted to be even clearer
about presidential power.'
Maclay's diary helps resolve a fundamental mystery
about Madison's strategy: Why did Madison think an
ambiguous contingency-plan clause was preferable to
an explicit removal clause for a stronger constitutional
position? The best reading of the evidence is that he and
his colleagues knew such a clear statement lacked the
votes in the Senate. The new Senate evidence explains
the presidentialists' turn to strategic ambiguity, revealing
retreat and evasion—and a closer reading shows that both
Madison's allies and opponents knew it.

9. Saikrishna Prakash, New Light on the Decision of 1789, 91
Cornell L. Rev. 1021 (2006).

9
B. Maclay's Diary Indicates Senate Opposition
and House Retreat
The Senate has always been a formal problem for
the "Decision of 1789," and not just because its 10-10
tie was hardly evidence of consensus. The Senate also
had no official legislative record, and it was difficult
to know if all ten votes were "presidentialist," if some
were congressionalist, or some were merely practical,
untheorized, expedient compromise, or simply a desire to
pass a bill and move on with an urgent summer agenda.
Senator William Maclay's diary indicates, first, that
two swing votes for the bill were late and tepid reversals,
likely political logrolling with no constitutional view; and
second, the Senate debate was confusing, so that even after
days of debate, several speakers remained unclear about
the ambiguous clause's meaning; and third, proponents of
the bill offered confusing denials and incoherent changes
to the clause to save the bill. These notes offer more
evidence that the proponents of the bill had purposely
deleted clear texts as a retreat from the opposition.
It is puzzling why judges and scholars have not
examined Senator Maclay's detailed notes on the removal
debate." His diary is a widely cited and definitive resource
for the first Senate's proceedings, filling in the gap in
the Senate's records. Maclay was a cynical grouch, but
there is little reason to be cynical about his diary. Maclay
10. Charles Thach, in taking a presidentialist interpretation
of the first Congress in 1923, quoted from Maclay's notes only from
the early days of the debate, but did not turn to the most significant
moments. Charles Thach, Jr., The Creation of the Presidency, 17751789, 140-41 (1923).

10
went to his grave apparently expecting his diaries to
remain hidden and unpublished. 9 DHFFC xiii-xvi.
His description of the debate is roughly consistent with
other Senators' more fragmentary notes, but Maclay's
notes are far more detailed, and hd was the only one to
record each day. Maclay was a well-respected lawyer, a
veteran of the Revolution, a member of the Pennsylvania
executive council, and a state judge. He had been almost
unanimously elected by the state legislature to the new
U.S. Senate. 9 DHFFC xii. When he was recording a
debate that reflected widespread confusion about the
meaning of this clause, it was more likely that the bill's
supporters were confusing (or obfuscating) than that
Maclay was confused.
Maclay's diaries were first published in 1890, and
then the Documentary History of the First Federal
Congress series published his diaries in 1988. Scholars
and this Court have relied on his accounts of the first
Congress's drafting of the Judiciary Act," and in July
2020, Justice Thomas quoted Maclay's diary in his
dissent in Trump v. Vance, 140 S. Ct. 2412, 2435 (2020)
(Thomas, J., dissenting). Chief Justice Taft cited Maclay's
diary for a vote count on the Foreign Affairs bill. Myers
11. See, e.g, Clinton v. Jones, 520 U.S. 681 (1998)
; Prakash, supra note 9; Charles Warren, New Light on the History
of the Federal Judiciary Act of 1789, 37 Harv. L. Rev. 49 (1923);
Akhil Reed Amar & Neal Kumar Katyal, Executive Privileges and
Immunities: The Nixon and Clinton Cases, 108 Harv. L. Rev. 701
(1995); Thomas H. Lee, The Safe-Conduct Theory of the Alien Tort
Statute,106 Colum. L. Rev. 830 (2006); Daniel J. Meltzer, The History
and Structure of Article III, 138 U. Pa. L. Rev. 1569 (1990); Steven
G. Calabresi & Christopher S. Yoo, The Unitary Executive During
the First Half-Century, 47 Case W. Res. L. Rev. 1451 (1997).

11
v. United States, 272 U.S. 52, 115 n.1 (1926). But until
now, the Supreme Court and contemporary legal scholars
have not examined Maclay's detailed day-by-day account
of the Senate debate on removal, covering ten pages of
the print edition.
First, Maclay's diary indicates that when the Senate
took up the Foreign Affairs bill in July, there was no
majority for even the watered-down removal language.
From Maclay's account, the bill had been poised to fail
by a vote of 8 to 12, or perhaps 7 to 13, but several lastminute switched or surprise votes delivered a tie. Maclay
suggested that at least two of those votes were due to late
political deal-making (Dalton and Bassett, at Maclay, 9
DHFFC 118-19). Paterson's vote also surprised Maclay. If
the opaque language passed only by a tie-breaker, it seems
the presidentialists had reason to worry about offering an
even more explicit clause to a hostile Senate.
Maclay's account of last-minute backroom lobbying
included a note that Representative Fisher Ames,
Madison's House ally, was presumably coordinating with
pro-Administration Senators in July. Id. at 113. The most
plausible explanation for Madison's reversal between June
18 and June 22 is that members of the House and Senate
often talked, and Madison and Benson learned that the
original explicit "removable" language risked defeat in
the Senate. This whip-counting landscape makes sense
of another puzzle: Madison had emphasized the practical
importance of clarity in the original bill's removal
language on June 18, but then reversed. He first explained,
"we ought to know by what tenure the office should be
held" to avoid the risk that "gentlemen may hesitate . . .
Hence it is highly proper that we and our constituents

12
should know the tenure of office.' 12 11 DHFFC 986-87
(Madison) (June 18, 1789). But after the weekend, Madison
and his ally Egbert Benson moved to replace this clear
clause with an unclear one.
Their explanation—that only an ambiguous clause
signaled their constitutional theory—should be understood
as pretextual, just as their opponents understood it. Their
new clause failed to clarify the source of the removal power,
but even more confusing, its text also obscured whether
a presidential removal power existed at all. If Madison
and Benson said they wanted to express a constitutional
basis in the statute, it is odd that they not add a common
explanatory clause to the bill, such as a "whereas"
clause or a preamble. The Constitution famously has its
own preamble, and Madison and George Mason added
a long preamble to Virginia's 1776 Constitution. The
first Congress added many explanatory "purposes" and
"whereas" clauses to statutes," including one of the first
statutes, the Impost (or Duty Act), signed on July 4, 1789,
and the Northwest Territory Act of 1789.14
Instead, Benson acknowledged a need for "reconciling
both sides of the house" from the beginning: "[H]e also
hoped his amendment would succeed in reconciling both
sides of the house in the decision, and quieting the minds
of gentlemen." 11 DHFFC at 1028. This phrasing is the
1 Annals of Cong. 546.
North Carolina Cession Act, 6 DHFFC at 1544, 1546-47;
Coasting Act, § 37, 1 Stat. 55, 65 (Sept. 1, 1789); Sinking Fund Act
of 1790, 1 Stat. 186 (Aug. 12).
The Duty Act, § 1, 1 Stat. 24 (July 4, 1789); id. at § 38;
Northwest Territory Act of 1789, 1 Stat. 50, 50-51 (Aug. 7, 1789).

13
opposite of using the language to make a presidentialist
statement and a rejection of the congressionalists. Benson
was signaling compromise: an ambiguous clause would let
each side claim its own interpretation. The final speaker
on this debate was Representative Vining, a presidentialist
who also conceded an uphill battle in the Senate and
a shift away from a text of "positive relinquishment":
"[Hie thought it more likely to obtain the acquiescence
of the senate on a point of legislative construction on
the constitution, than to a positive relinquishment of a
power which they might otherwise think themselves in
some degree intitled to." Id. at 1035. It is implausible that
Vining thought a permanent constitutional concession was
more acceptable to the Senate than a reversible statutory
delegation. The only likely explanation is that the House
presidentialists knew of the same Senate opposition,
consistent with Maclay's diary, and they needed to switch
from explicit "positive relinquishment" to ambiguity open
to "legislative construction."
House opponents also understood this context and
mocked this move as a retreat: for "shifting the ground in
the matter now proposed, the journal would not declare
truly the question which had so long been contested,"
id. at 1028; for "pretend[ing] to carry their point by a
side blow, when they are defeated by fair argument on
due reflection"; for not being "more candid and manly to
do it in direct terms than by an implication like the one
proposed," id. at 1029; for having "evacuated untenable
ground." Id. at 1030.
Madison and Benson could have silenced these critics
with a simple prefatory clause about the Constitution, but
it is revealing that they still did not.

14
C. A Head Count of the House Shows a Wide
Majority Rejected Exclusive Presidential
Removal
Another puzzle of Myers's presidentialist claim is that
scholars and judges have never offered a whip count or a
tally on the constitutional question to show a majority.15
Here, the first such constitutional-category count finds
the presidentialists fell far short, roughly 30% to 39%,
depending upon whether to include less-clear stances.
See Table, infra la.
The "senatorial" opposition had 16 Representatives.
An "impeachment-only" splinter group had three.
The line between "presidentialist" and
"congressionalist" is less simple, partly because both
camps supported giving the President removal power and
made similar arguments before June 22. One common
mistake in the studies on both sides of this debate is
weighing earlier statements equally with those on June
22, when the Madison-Benson proposal starkly divided
the camps, and representatives finally had to choose sides.
There are 16 members of the "presidentialist" camp: 13
who voted "yes" on all three motions, plus three members
whose speeches and letters endorsed presidentialism.
There are six explicit congressionalists, four of whom
voted yes/no/yes. Six others voted yes/no/yes without
giving reasons. The evidence suggests that they were
15. J. David Alvis, Jeremy Bailey, and F. Flagg Taylor offered
a chart of members by vote patterns, not by interpretive camps. See
J. David Alvis et al., The Contested Removal Power, 118-21 (2013).

15
more likely congressionalists or had no constitutional
positions at all.
To understand those six "silent" yes/no/yes
Representatives, we need to examine the thirteen who
voted yes/no/yes.16 This vote sequence more often was
the hallmark of the "congressionalists," voting "no" on
the second motion, so as to keep the explicit "removable"
clause. Thomas Hartley, a congressionalist leader,
announced on the floor that the middle vote of "no"
would be the vote of "every gentleman . . . who was not
fully convinced that the power of removal vested by the
constitution in the president." 11 DHFFC at 1035. Of the
13 members who voted yes/no/yes, only one (Boudinot)
endorsed presidentialism on the House floor. Another
(Fitzsimons) only hinted at presidentialism in a letter two
months later. Four others were expressly congressionalist
(Hartley, Lee, Sedgwick, Silvester). One other (Laurance)
mixed both interpretations. Six were "silent" yes/no/yes
voters. Of these 13, those who expressed a view on the
floor were much more likely to endorse congressionalism
over presidentialism (4 to 1). See Table, infra, la.
Furthermore, it is problematic to interpret their
silence as a vote in favor of the most permanent
constitutional principle, rather than the more flexible or
moderate position. It is also problematic to rely on silence
as a statement of clear original public meaning. The more
likely explanation for why a half-dozen or so Members
16. One of these thirteen (Boudinot) missed the first vote, and
then voted no/yes. Based on his speeches, he would have voted yes
in the first vote. Prakash, supra note 9, characterizes this group of
13 as "enigmatic."

16
voted yes/no/yes: they were either congressionalist,
like most of the yes/no/yes members who spoke, or they
simply supported a policy of presidential removal as a
practical matter. A pragmatic member would have been
exhausted from spending the entire week before on an
abstract question, would have preferred a clear text, and
would have wanted to move on to more urgent matters
like the debt, revenue, salaries, establishing the other
departments and the courts, and the crucial Bill of Rights
amendments.
A fair count shows the presidentialists added up to
only 16 out of 53 participating House members (30%).
If one tallies only the Members whose views can be
identified, presidentialists were still only 16 out of 41
(39%). And even if one counts all six "silent" yes/no/yes
voters as presidentialists, this charitable approach still
does not produce a majority (only 22 out of 53 voting
Members, 42%).
D. Maclay's Diary Records Strategic Ambiguity,
Confusion, and Retreat by the Presidentialists
Maclay's notes, along with the notes of Vice President
Adams and other senators, show senators playing out
Madison's strategy of ambiguity and obfuscation.
Maclay's diary recounts that the Senate debated the
ambiguous language for several days, with confusion up
through the final day. On the first day, Senator William
Johnson condemned "the Decept[io]n" of this provision:
"We all know That the Const[itutio]n in this point was
defendd on the ground I contend for." 9 DHFFC at 467.
Senator Johnson also ridiculed the bill arriving in so

17
"Quest[ionabl]e a shape." Id. at 448. After four days of
debate, Johnson and Maclay still had questions about
the bill's shape and meaning. They were still trying to
clarify whether the bill in fact excluded the Senate from
any role in removal, which is possible only if the Senate
debate remained confusing by accident or by design. After
pointing out how it was obvious that the clerk would take
care of the department papers in case of any removal,
Maclay asked rhetorically, "What then is the Use of the
Clause?" Apparently he felt that the point was still not
clear: Was the clause meant to empower the President?
He concluded that it was, and "the design is but illy
concealed." 9 DHFFC at 118. Maclay suggested the bill
intentionally used ambiguity to conceal the bill's effect of
disempowering the Senate.
Perhaps perceiving that the Senate vote could tip
against both the clause and the entire bill, its supporters
immediately suggested a compromise and possibly
deleting parts of the clause. Senator Johnson, also an
opponent of the bill, "glanced something at the Conduct
of the other House and as what I [Maclay] said leaned the
same way." Id. According to Maclay, Johnson seemed to be
issuing the same warning: The House sponsors had said
they intended this wording of the statute to mean removal
was only the president's power, and not the Senate's.
Senator Robert Morris, the former Superintendent of
Finance and a supporter of executive power, answered:
"Mr. [Robert] Morris said Whatever the particular View
might be of the member who brought in this clause, he
acquitted the House, in general of any design against the
Senate." Id. Morris meant that the House authors' intent
was irrelevant, and even so, he denied that the House had
"any design against the Senate." Id.

18
After the final 10-10 vote that day in July, Maclay
wrote that the proponents had hidden a power in "cloaked"
or "modifyed" language. Id. at 119. Just as the House's
skeptics denouncing Madison's move as a "side blow,"
Maclay called it a "Sidewind," the opposite of "plain
dealing." Id. Vice President Adams himself recorded,
against his own interest, similar accusations of evasive
"Sidewinds" and criticisms of "inferentially" claiming
constitutional meaning. Id. at 448.
A presidentialist might suggest that the Senate was
surrendering its own institutional power, so this rare
public-spirited moment of sacrifice must have been driven
by constitutional principle. However, the Senate had a
substantial "pro-administration" majority, later forming
into the Federalists. The Senate votes for the bill roughly
followed proto-partisan lines, and the pro-administration
side's lobbying diminished the likelihood of a principled
meaning.
Maclay's diary indicates that the Senate was initially
far short of a majority for the bill, which explains why
Madison and Benson deleted the clear language; and it
illustrates how the strategic ambiguity and denial played
out in the Senate to get their bill passed.
II. The First Congress's Other Debates and Statutes
Demonstrate the Rejection of Exclusive Presidential
Removal
After the presidentialists in Congress retreated in
the Foreign Affairs debate, other debates and statutes in
the summer of 1789 further rejected the presidentialist
constitutional theory—both in debate and more concretely
in a series of anti-unitary removal clauses.

19
The First Congress Voted Against "At
Pleasure" Removal
First, it is crucial to note a broad scholarly consensus
that any "Decision of 1789" did not include presidential
"at pleasure" removal. Saikrishna Prakash observed,
"the Decision of 1789 did not endorse the view that
Congress lacked authority to modify the Constitution's
grant of removal power to the President.'"7 New evidence
from the debates and statutes after the Foreign Affairs
debate shows that the first Congress understood such
modifications were possible. Very few members of
Congress (only about four or five) spoke in favor of
presidential removal at pleasure in 1789.18 Moreover,
Representative John Page, an opponent of removal, moved
to delete the language in the Treasury bill that the head
would "be removable at the pleasure of the President."
11 DHFFC 1045 (June 26, 1789). Page's motion passed
without debate. Members discussed justiciability of forcause removals in the English writ tradition (mandamus,
and otherwise, scire facias, quo warranto), suggesting an
oversight role for Congress and the courts.
Madison Proposed a Comptroller Who Would
Serve "During Good Behaviour," and the First
Congress Understood That a Term of Years
Limited Presidential Removal
Soon after the Foreign Affairs debate, Madison
proposed a Comptroller who would serve during good
behavior, not at the pleasure of the President. This
Prakash, supra note 9, at 1073.
See generally Shugerman, supra note 2.

20
Court, in Free Enterprise Fund, interpreted this
proposal to permit at-will removal by the President. Free
Enter. Fund, 561 U.S. at 500 n.6. However, the Court
misunderstood this proposal because it had not yet seen
recent scholarship on the English and American law of
offices: When an office by statute had a fixed term of
years, the default rule was that the officer could not be
removed sooner.19 This long-standing rule is evidence
against the assumption of executive removal, and it also
explains a puzzle in Marbury v. Madison: why neither
Chief Justice Marshall nor President Jefferson resolved
the conflict with simple presidential removal. The Justice
of the Peace served a fixed term of years with no language
permitting removal.
Madison's comptroller proposal permitted presidential
removal, but this debate shows that there was no
assumption that removal was at will. Madison's exchanges
with his colleagues showed that they all understood he
was proposing tenure "during good behaviour." After
Madison said the comptroller "should not hold his office at
the pleasure of the executive branch of the government,"
a colleague replied with an understanding that Madison
was proposing that the comptroller "would hold his office
by the firm tenure of good behaviour," and Madison's
answer implicitly confirmed. 11 DHFFC at 1080, 1082
(June 29, 1789). This discussion in late June was consistent
with Madison's earlier statement in May: "[I]t is in the
discretion of the legislature to say upon what terms the
19. See Jane Manners & Lev Menand, Removal Permissions
and the Forgotten Tenure of a Term of Years, Colum. L. Rev.
(forthcoming), available at https://papers.ssrn.com/sol3/papers.
cfm?abstract_id=3520377.

21
office shall be held, either during good behaviour, or
during pleasure." 10 DHFFC 729-30 (May 19, 1789). Two
other congressmen also described a similar rule of nonremovability for offices held for a term of years.2°
The first Congress wrote the Judiciary Act reflecting
the same understanding, because it included removal
"at pleasure" only for the offices with a term of years,
because otherwise those offices would have been protected
against removal. Relying on expressio unius, it is notable
how rarely "at pleasure" was used in the first Congress's
statutes regarding removal, suggesting a default rule
against "at pleasure."
C. The First Congress Enacted Removal by the
Judiciary
The first Congress passed a series of statutes giving
removal power to judges and juries, and many subsequent
Congresses followed suit throughout the Founding and
Antebellum eras. The Treasury Act's anti-corruption
clause established removal by the judiciary, empowering
relatively independent prosecutors and judges to check
presidential power. Immediately before Madison proposed
his "good behaviour" Comptroller, Aedanus Burke of
South Carolina offered an anti-corruption mechanism
for prosecutors and judges to remove principal Treasury
officers:
[I]f any person shall offend against any of the
prohibitions of this Act, he shall be deemed
20. Laurance, 11 DHFFC at 907 (June 17, _1789); Livermore,
11 DHFFC at 984 (June 18, 1789). See Shugerman, The Decisions
of 1789 Were Anti-Unitary, supra note 2.

22
guilty of a high misdemeanor, and forfeit to the
United States the penalty of three thousand
dollars, and shall upon conviction be removed
from Office, and forever thereafter incapable
of holding any office under the United States."
This act's prohibitions generally covered conflicts of
interest and ethics rules, more than traditional criminal
questions of bribery. Burke explained that this clause
was "to prevent any of the persons appointed to execute
the offices created by this bill, from being directly or
indirectly concerned in commerce, or in speculating in
the public funds under a high penalty, and being deemed
guilty of a high crime or misdemeanor." 11 DHFFC 1080
(June 29, 1789).
Madison appears to be describing this clause to
Jefferson: "The business will be so arranged as to make
the comptroller and the other officers checks on the Head
of the Department."22 In the Founding era, there was no
Department of Justice, and the Comptroller supervised the
federal district attorneys—but only loosely. Prosecutors
were relatively independent in this era. The statutory
text suggests either that presidents needed good cause to
remove an officer (in which case a president's mere will was
not sufficient) or an anti-presidential removal approach (in
which case a president's will was not necessary), and judges
could remove an official that a president wanted to retain.
An Act to Establish a Treasury Department (Act of Sept.
2, 1789), ch. 12, § 8, 1 Stat. 65, 67 (emphasis added).
Letter from James Madison to Thomas Jefferson (June 30,
1789), in 12 Papers of James Madison, at 271 (Charles Hobson and
Robert Rutland, eds., 1979).

23
The first Congress passed a total of six clauses
establishing removal by the judiciary: two for the
Treasury department, three for customs and duties, and
one for bribery.23 Following the English law of offices,
these statutes mirrored English writs to remove an
officer (such as mandamus, quo warranto, and scire
facias). The penalties were less like criminal fines, but
more like the traditional financial penalties in the law of
offices in the form of losing sureties and financial bonds.
"High misdemeanor," the phrase used most often in
these removal statutes, includes abuses of office, and not
necessarily statutory crimes.
Congress in the 1790s added eight more removal-byjudiciary provisions on top of the six other clauses passed
in the first Congress. Some of these clauses were in the
most famous and salient statutes in the traditionally
executive domains of foreign policy, war, peace, and
immigration: the Neutrality Acts,24 the Sedition Act of
1798,25 the Logan Act of 1799,26 and in the next decade, the
Embargo Acts.27 Congress extended removal-by-judiciary
in at least 15 other statutes before 1820,28 and more
Act of July 31, 1789, § 12, 1 Stat. 29, 39; id. § 35, at 46; Act
of April 30, 1790, § 21, 1 Stat. 112, 117; Act of March 3, 1791, § 49, 1
Stat. 199, 210; Act of March 3, 1791, § 1, 1 Stat. 215.
Neutrality Act, 1 Stat. 381 (1794).
Sec. 1, 1 Stat. 596, 596 (1798).
1 Stat. 613 (1799).
Embargo Act of Jan. 9, 1809, § 1, 2 Stat. 506.
Act of May 8, 1794, ch. 23, § 11, 1 Stat. 354, 359; Act of June
5, 1794, ch. 49, § 14, 1 Stat. 378, 380; Act of Feb. 23, 1795, ch. 27, § 2,

24
thereafter.29 Congress, in other words, was empowering
relatively independent prosecutors and judges to remove
executive officials for ethics rules and misbehavior in
office, even without the support of the President, even
against the President's wishes, and without a felony
conviction or the context of prison. This is further evidence
that the first Congress and the following Congresses
for decades rejected the notion that the President has
exclusive removal power.
III. What this New 1789 Evidence Tells Us About
the Constitution's Text, the Convention, and
Ratification
This new evidence from the first Congress connects
back to the Convention and Ratification debates with
a consistent theme of a congressional role in removal,
especially in the Treasury. This clear "congressionalist"
evidence from 1787-1789 leaves untenable the originalists'
claims for indefeasible presidential removal.

1 Stat. 419; Act of April 18, 1796, ch. 13, § 3, 1 Stat. 452, 453; Act of
April 21, 1806, ch. 49, § 3, 2 Stat. 404, 405; Act of April 21, 1806, ch.
48, § 6, 2 Stat. 402, 403; An Act to Prohibit the Importation of Slaves,
ch. 22, §§ 5, 7, 2 Stat. 426 (1807); Embargo Act of Jan. 9, 1809, § 1, 2
Stat. 506; Embargo Act of Dec. 17, 1813, 3 Stat. 88; Act of April 20,
1818, § 4, 3 Stat. 447, 448; Act of Apri125, 1812, § 10, 2 Stat. 716, 717;
Act of Dec. 18, 1812, 2 Stat. 788.
29. Act of May 7, 1822, ch. 107, § 17, 3 Stat. 693, 696; Act of July
4, 1836, ch. 352, § 14, 5 Stat. 112; Act of July 17, 1854, ch. 84, § 6, 10
Stat. 306; Act of June 11, 1864, ch. 119, 13 Stat. 123; Act of March 3,
1869, ch. 125, § 3, 15 Stat. 321; Act of June 20, 1864, ch. 136, § 2, 13
Stat. 137, 139; Act of Feb. 12, 1873, ch. 131, § 1, 17 Stat. 424.

25
A. Madison, Hamilton, and the Convention
Madison was a presidentialist in the Foreign Affairs
debate, but before and after it, he supported congressional
limits. In June 1789, he acknowledged that he initially
favored the senatorial position, the same as Hamilton in
Federalist No. 77: "The consent of [the Senate] would be
necessary to displace as well as to appoint." 30 11 DHFFC
845, 846 (June. 18, 1789). In 1790, Hamilton supported
Congress's power to establish a non-unitary Sinking Fund
Act, which gave executive power to the non-removable
Chief Justice and Vice President. 31
If one is looking for clear original public meaning,
Madison and Hamilton took all three major interpretations
(presidentialist, congressionalist, and senatorial). Madison
was more consistently congressionalist from 1787 through
1789. 10 DHFFC 729-30 (May 19, 1789). Madison wrote in
Federalist No. 39: "The tenure by which the judges are
to hold their places, is, as it unquestionably ought to be,
that of good behavior. The tenure of the ministerial offices
generally, will be a subject of legal regulation, conformably
to the reason of the case and the example of the State
constitutions." 32 Madison clarified his more specific views
on "the reason on the case" in the Treasury debate: A
Comptroller, arbitrating sensitive financial disputes,
The Federalist No. 77.
Sinking Fund Act of 1790, 1 Stat. 186. See Christine Kexel
Chabot, Is the Federal Reserve Constitutional? An Originalist
Argument for Independent Agencies, Notre Dame L. Rev.
(forthcoming), available at https://papers.ssrn.com/sol3/papers.
cfm?abstractid=3458182.
The Federalist No. 39.

26
should serve during "good behaviour"; and Madison
supported decentralized checks within the Treasury,
likely the removal-by-judiciary clause. 11 DHFFC 108082 (June 30, 1789).
The Convention had similar discussions that have been
too often overlooked. When James Wilson suggested an
implied expansive meaning of "executive power," Madison
replied with a narrow interpretation: "executive powers
ex vi termini, do not include the Rights of war & peace
&c. but the powers should be confined and defined—if
large we shall have the Evils of elective Monarchies.'33
This approach was consistent with Madison's emphasis
on limited enumeration of powers (Federalist 14 and
45). Another overlooked moment in Madison's notes was
Gouverneur Morris's proposal for "during pleasure"
presidential removal that died in the Convention. On
August 20, Morris proposed an executive council of six
department heads who would serve "during pleasure,"34
but it died in the Committee of Detail. A pro-presidentialist
scholar described the failure as "pro tanto an abandonment
of the English scheme of executive organization."35
The bottom line is that the debates from the
Convention, the Ratification Debates, and the first
Congress all point clearly in the same direction: for a
congressional role on removal conditions, especially for
Treasury offices.
1 Max Farrand, Records of the Federal Convention 70
(June 1, 1787) (1911).
Id. at 342.
Charles Thach, Jr., The Creation of the Presidency, 110
(citing Morris's acknowledgment of its rejection at 2 Max Farrand,
Records of the Federal Convention, 342).

27
B. The Executive Vesting Clause Did Not Mean
"Indefeasible" or Exclusive Removal
Once the "Decisions of 1789" are properly understood
as congressionalist, what is left of the originalist unitary
executive arguments in Myers?
Some attempt to read exclusivity back into the text
in the Constitution, despite its textual absence. In his
Morrison v. Olson dissent, Justice Scalia wrote of
the Vesting Clause, "[T]his does not mean some of
the executive power, but all of the executive power." 36
However, the text of Article II's Vesting Clause does not
include the word "all." " The Framers used the word "all"
elsewhere to convey entirety in Article I's vesting clause
and in Article III on jurisdiction, but not in Article II. It
is telling that textualists are adding words to the text,
instead of noting their conspicuous absence (expressio
unius).
The words "the," "executive power," and "vested"
do not establish exclusivity either." Recent scholarship
demonstrates that the phrase "executive power"
Morrison v. Olson, 487 U.S. 654, 705 (1988) (Scalia, J.,
dissenting).
Victoria Nourse, Reclaiming the Constitutional Text from
Originalism, 106 Cal. L. Rev. 1, 3, 23-25 (2018).
See Shugerman, Vesting, supra note 2. See also Peter
Shane, The Originalist Myth of the Unitary Executive, 19 U. Penn.
J. Con. L. 324 (2016); Robert G. Natelson, The Original Meaning of
the Constitution's Executive Vesting Clause, 31 Whittier L. Rev. 1
(2009); Bradley & Flaherty, supra note 4, at 553-56 (2004).

28
encompassed less than many judges have assumed," so
it is a stretch to suggest it included indefeasible power. If
"executive power" meant a capacious and exclusive power
grant, it is unclear how Article II shared the appointment
power (a broader and more established power than
removal) between the president and the Senate.
Eighteenth-century dictionaries and early American
usage indicate that the word "vested" did not have a
meaning of "exclusive" or "indefeasible." The word
"vested" was almost never used in colonial charters, and
then it suddenly emerged in some early state constitutions
in the 1770s without a clear meaning.4° For example,
"vested" appears in the Articles of Confederation —but
in a remarkably temporary and explicitly revocable way:
in Article X for Congress during recess to "vest with"
a "Committee of the States, or any nine of them" some
executive powers "from time to time." The Articles of
Confederation found other ways to convey "sole" and
"exclusive" power: by using those exact words, rather
than "vest": "The United States in Congress assembled,
shall have the sole and exclusive right and power of
determining on peace and war." Articles of Confederation,
Art. IX, Sec. 1 (emphasis added); see also id. Sec. 4. The
Framers knew how to communicate "sole" and "exclusive"
power by using the words "sole" and "exclusive." There is
little evidence that the word "vest" had such a connotation.

Julian Davis Mortenson, Article II Vests the Executive
Power, not the Royal Prerogative, 119 Colum. L. Rev. 1169 (2019);
Julian Davis Mortenson, The Executive Power Clause, 167 U. Penn.
L. Rev. (forthcoming Fall 2020).
See Shugerman, Vesting, supra note 2.

29
There may be a separate originalist argument that
the Take Care clause could be a basis for some degree of
removal power, but that power arguably would be limited
by "faithful execution," with a role for Congress to require
cause as an indication of good faith." This originalist
argument is beyond the scope of this brief.
CONCLUSION
New evidence from Senator Maclay's diary, the House
debates, and the first Congress's statutes show that Myers
was wrong about the "Decision of 1789." This historical
evidence reveals at least indecision about Article II on
removal, and more likely, a rejection of the presidentialist
and exclusivist positions in favor of congressional limits.
The presidentialists had to retreat and obfuscate, but
meanwhile, congressionalists—likely with Madison's
support—passed concrete statutes delegating removal to
the courts. The first Congress reflected an original public
meaning against exclusive presidential removal, and in
favor of congressional power to regulate and delegate
removal more broadly, especially with respect to financial
matters.
There may be other historical or functionalist
arguments against the single-head structure of the
FHFA (or the CFPB), but the first Congress provides
ample historical evidence in favor of the FHFA. The
original public meaning of Article II does not support
41. Andrew Kent, Ethan J. Leib, & Jed Shugerman, Faithful
Execution and Article II, 132 Harv. L. Rev. 2111 (2019); Jed
Shugerman & Ethan J. Leib, Will The Supreme Court Hand Trump
Even More Power?, N.Y. Times (Oct. 8, 2019), https://www.nytimes.
com/2019/10/08/opinion/trump-supreme-court-fed.html.

30
Petitioners' argument that the structure of the FHFA is
unconstitutional or that Humphrey's Executor should be
overturned.
Respectfully submitted,
RACHEL HOMER
JUSTIN FLORENCE
PROTECT DEMOCRACY PROJECT
Counsel of Record
ANNE TINDALL
15 Main Street, Suite 312
JUSTIN VAIL
Watertown, MA 02472
PROTECT DEMOCRACY PROJECT
2020 Pennsylvania Avenue NW,
Suite 163
Washington, DC 20006
(202) 997-2166
rachel.homer@protectdemocracy.org
Counsel for Amicus Curiae

APPENDIX

la
APPENDIX — TABLE:
POSITIONS ON REMOVAL POWER
Representatives who voted yes/no/yes, the pivotal
bloc, are in bold. An "x" indicates a representative did
not vote in one of these three votes.
Presidential
(generally
YYY)
More Ames
clear Baldwin YYx
Benson
Boudinot'
xNY
Brown
Burke
Clymer
Goodhue
Griffin
Madison
Moore
Muhlenberg
Scott
Sinnickson
Vining

Silent YNY Explicitly
Congressional
(generally YNY)
Carroll
Hartley"
Contee
Lee
Gilman
Sedgwickiv
Hiester
Silvestery
Tuckerv' NNN
Seney
Trumbull

Less Fitzsimons"
Clear

Laurance" Cadwalader'x
Huger xxY NNY
Schureman
xNY
9
6

Total 16

2a
Appendix
Opposed/
unclear

Opposed,
Senatorial
(generally
NYN)
More Leonard YYN Coles
Gerry
clear Thatcher
Grout
YNN
Hathorn
Livermore
Matthews
Page
Parker
Partridge
VanRenss.
Sherman
Smith (MD)
Stone
Sturges
Sumter
White
Less Wadsworth
Clear YNx

Opposed,
impeachment
only

Total

3

3

16

Smith (SC)

Huntington
NYN
Jackson xxN

3a
Appendix
Final vote counts:
Based on available evidence, 16 Representatives
were "presidentialist," out of 53 (30%).
If only counting Representatives with identifiable
votes or views, 16 out of 41 were "presidentialists"
(39%).
If adding the 6 "silent" yes/no/yes votes, 22 out of
53 were "presidentialists" (42%).
11 DHFFC 1034 (June 22). Boudinot's speech indicates he
was a presidentialist and would have voted "yes" on the first vote.
H 11 DHFFC 886, 904-07 (June 17); id. at 1035 (June
22). Hartley's August correspondence is consistent with his
congressionalism. See Shugerman, "Indecisions of 1789," supra
note 2; Letter to Jasper Yeates (Aug. 1, 1789), 16 DHFFC 1209;
Letter to Tench Coxe (Aug. 9, 1789), 16 DHFFC 1261.
11 DHFFC 962-65 (June 18); 1 Annals at 523-26 (June 18).
iv 11 DHFFC 983 (Sedgwick) (June 18); Id. at 1029-30 (June 22).
v 11 DHFFC 996, 1008-09 (June 19).
vi Id. at 1034-35.
vii
A June 20, 1789 letter was too early to focus on the
presidentialist/congressionalist divide. 16 DHFFC 819-20. An
August 24, 1789 letter makes only an oblique reference two months
after the vote. 16 DHFFC 1390.
viii Laurance was not "silent," but spoke for both views in two
mixed speeches. 11 DHFFC at 887-89, 907-11 (June 17); id. at
1034 (June 22).
ix Letter from Lambert Cadwalader to James Monroe (July
5, 1789), 16 DHFFC 946-47. He voted against both of Madison's
June 22nd proposals.

